        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
California Energy Commission –
Energy Efficiency and Conservation
Block Grant Program Funds
Provided by the American Recovery
and Reinvestment Act of 2009




OAS-RA-13-01                     October 2012
                                 Department of Energy
                                   Washington, DC 20585
                                        October 9, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                   Rickey R. Hass
                        Deputy Inspector General
                           for Audit Services
                        Office of Inspector General
SUBJECT:                INFORMATION: Examination Report on "California Energy
                        Commission − Energy Efficiency and Conservation Block Grant
                        Program Funds Provided by the American Recovery and Reinvestment
                        Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the California Energy Commission's
(Commission) implementation of the American Recovery and Reinvestment Act of 2009
(Recovery Act) Energy Efficiency and Conservation Block Grant Program (EECBG Program).
The Office of Inspector General (OIG) contracted with an independent certified public
accounting firm, Lopez and Company, LLP, to express an opinion on the Commission's
compliance with Federal and State laws, regulations and program guidelines applicable to the
EECBG Program. The Commission is a grant recipient of the Department of Energy's Recovery
Act EECBG Program funding for the State of California.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The Commission received a $49.6 million grant award that was to be
expended over a 3-year period, from September 14, 2009 through September 13, 2012.

CONCLUSIONS AND OBSERVATIONS

Lopez and Company, LLP, expressed the opinion that except for the weakness described in the
report, the Commission complied in all material respects with the requirements and guidelines
relative to the EECBG Program for the period September 14, 2009 through June 30, 2011.
However, the examination found that the Commission failed to prevent or detect two duplicate
drawdowns of reimbursements from the U.S. Department of the Treasury totaling $678,000.
Commission officials were not aware of the problem until Lopez and Company, LLP, brought
the improper drawdowns to their attention.
                                                2

The report makes recommendations for the Commission to improve the administration of its
EECBG Program. The Commission provided comments that expressed agreement with the
recommendations and provided planned and ongoing actions to address the issues identified.
While these comments and planned corrective actions are responsive to the recommendations,
the Department needs to ensure the planned actions are completed.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy:

     1. Ensure appropriate action is taken by the Commission to establish policies and
        procedures to ensure that all drawdowns are independently reviewed and approved;
        and,

     2. Direct the Commission to review all drawdowns to verify payments received are
        properly supported.

We also recommend that the Contracting Officer for the Commission's EECBG Program:

      3.   Resolve questioned costs of about $678,000.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendations outlined in this memorandum. The
Department stated it would ensure implementation of plans addressing the recommendations.
Additionally, the Department stated it had verified that all funds drawn down were expended on
permissible projects, and that any interest earned as a result of the duplicate drawdowns would
be calculated and returned to the U.S. Department of the Treasury in the next reporting quarter.
The Department's comments are included in their entirety in Attachment 2.

The Department's comments are responsive to our recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted this examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants, as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Commission's policies and procedures and reviewing applicable Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests,
and compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated June 15, 2012, and the conclusions expressed in the
report.
                                       3

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                                                              Attachment 1




                           EXAMINATION REPORT ON COMPLIANCE

                                                                   OF

        Recovery Act Energy Efficiency and Conservation Block Grant Program

                         State of California – California Energy Commission

                                                              ____

                                                  PERFORMED FOR

                                    U.S. DEPARTMENT OF ENERGY
                                   OFFICE OF INSPECTOR GENERAL



                                                         Prepared by

                                             Lopez and Company, LLP

                                            Report Date: June 15, 2012




                                CONTRACT NUMBER: DE-IG0000017

                                    WORK ORDER NUMBER: 2011-04


14728 Pipeline Avenue▪▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                                                Attachment 1 (continued)




                                                    Table of Contents



INDEPENDENT ACCOUNTANT’S REPORT ........................................................................ 1

Section I Description of the California Energy Commission Energy Efficiency and
          Conservation Block Grants Program ......................................................................... 2

Section II Classification of Findings........................................................................................... 3

Section III Summary of Findings ............................................................................................... 4

Section IV Schedule of Findings ................................................................................................. 5

Section V Complete Management Response .............................................................................7




                                                                                            Lopez and Company, LLP
         Attachment 1 (continued)




Page 1      Lopez and Company, LLP
                                                               Attachment 1 (continued)


   Section I Description of the California Energy Commission Energy
           Efficiency and Conservation Block Grants Program

The California State (State) Legislature established the California Energy Commission
(Commission) in 1974 to address the energy challenges facing the State. The
Commission is the State's principal energy policy and planning organization. Since 1974,
successive administrations, with bipartisan legislative support, have enacted more than
100 separate laws to assist the Commission in implementing State energy policy.

Under the Energy Efficiency and Conservation Block Grant (EECBG) Program,
assistance is offered to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total
energy use of the eligible entities, and improve energy efficiency in the transportation,
building and other appropriate sectors. As part of the American Recovery and
Reinvestment Act of 2009 (Recovery Act), the U.S. Department of Energy's
(Department) Office of Energy Efficiency and Renewable Energy received $3.2 billion in
EECBG funding. Of this amount, $2.7 billion was awarded through formula grants and
$454 million was allocated through competitive grants.

The Commission received a $49.6 million grant award, which was to be expended over a
3-year period from September 14, 2009 through September 13, 2012. The Commission
has three activities under the grant, including a Financial Incentive Program, Energy
Efficiency Retrofits, and an Energy Efficiency and Conservation Strategy.




                                        Page 2                     Lopez and Company, LLP
                                                                 Attachment 1 (continued)


                      Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or
combination of significant deficiencies that results in more than a remote likelihood that a
material misstatement of the subject matter will not be prevented or detected.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal
control, or combination of deficiencies, that adversely affects the Commission's ability to
initiate, authorize, record, process, or report data reliably in accordance with the
applicable criteria or framework, such that there is more than a remote likelihood that a
misstatement of the subject matter that is more than inconsequential will not be prevented
or detected.

Advisory Comment
For purposes of this engagement, an advisory comment represents a control deficiency
that is not significant enough to adversely affect the Commission's ability to record,
process, summarize, and report data reliably.

Advisory comments presented, if any, represent matters that came to our attention during
the course of the review, and are offered to the Commission's management as an
opportunity for improvement. The advisory comments are provided along with
recommendations and discussion of the significance of the comments.




                                         Page 3                      Lopez and Company, LLP
                                                   Attachment 1 (continued)


                      Section III Summary of Findings



Area/Finding


      Material Weakness
Cash Drawdowns
      IV.1     Improper Drawdown of Funds




                                     Page 4             Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                             Section IV Schedule of Findings

CASH DRAWDOWNS

IV.1     Improper Drawdown of Funds (Material Weakness)

Condition

In our review of about $3.6 million in EECBG funding drawn down from the U.S. Treasury by
the California Energy Commission (Commission), we identified 2 duplicate drawdowns totaling
about $678,000, or about 20 percent of the amount reviewed. The Commission was not aware of
the improper drawdowns until we brought them to its attention. The specific items in question
were included as part of larger drawdowns.

Recipients are required to have established adequate controls to ensure the accuracy and integrity
of financial information. In addition, Federal regulations require grant recipients to ensure
adequate documentation for all costs incurred.

Cause

The duplicate reimbursements we identified occurred because the Commission allowed a single
individual to draw down funds without oversight. Specifically, the Commission lacked an
independent, supervisory review process, along with the policies and procedures necessary to
ensure such a review occurred. The fact that one individual has the ability to draw down funds,
without a review and approval process, indicates a substantial lack of internal controls within the
organization.

Effect

The Commission's lack of sufficient internal controls over drawdowns increases the risk of fraud,
waste and abuse within the EECBG Program.

Recommendation

We recommend that Commission officials:

1.1      Establish policies and procedures to ensure that all drawdowns are independently
         reviewed and approved;

1.2      Review all drawdowns to verify payments received are properly supported; and,

1.3      Resolve questioned costs of about $678,000.




                                                 Page 5                      Lopez and Company, LLP
                                                                        Attachment 1 (continued)

                     SECTION IV Schedule of Findings (Cont.)
IV.1    Improper Drawdown of Funds (Material Weakness) (cont.)

Management Comments

The Commission agrees with the finding and recommendations. The Commission has taken the
following actions:

   1. The Energy Commission Accounting Office has established new procedures to prevent
      this type of error in the future.

   2. The Accounting Administrator now reviews and approves drawdown requests by
      reviewing the federal drawdown sheet for the grant to ensure funds have not previously
      been requested.

   3. The duplicate drawdowns have been appropriately reported on quarterly reports to the
      U.S. Department of Energy.
The Commission disagrees with the statement that it lacks sufficient internal controls over
drawdowns, stating that the inadvertent error would have been detected by its monthly fund
reconciliations within a matter of weeks.

Auditor's Response

We appreciate the actions taken by the Commission. We note, however, that one of the
duplicates we identified and brought to its attention went undetected for 7 months, raising
questions about the efficacy of the Commission's monthly reconciliations in detecting errors.




                                                Page 6                     Lopez and Company, LLP
                                   Attachment 1 (continued)



Section V Complete Management Response




                  Page 7              Lopez and Company, LLP
                                   Attachment 1 (continued)


Section V Complete Management Response




                  Page 8              Lopez and Company, LLP
                      Attachment 2


DEPARTMENT COMMENTS
Attachment 2 (continued)
                                                                 IG Report No. OAS-RA-13-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
